      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                        Washington, D.C. 20201




July 5, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Lori S. Pilcher/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of the Quarterly Medicaid Statement of Expenditures for the Medical
               Assistance Program in Oklahoma (A-06-09-00097)


Attached, for your information, is an advance copy of our final report on the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program in Oklahoma. We will issue this
report to the Oklahoma Health Care Authority within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through email at Patricia.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00097.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
July 6, 2011

Report Number: A-06-09-00097

Ms. Carrie Evans
Chief Financial Officer
Oklahoma Health Care Authority
2401 NW 23rd Street, Suite A1
Oklahoma City, OK 73107

Dear Ms. Evans:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program in Oklahoma. We will forward a copy of this report to the
HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Warren Lundy, Audit Manager, at (405) 605-6183 or through email
at Warren.Lundy@oig.hhs.gov. Please refer to report number A-06-09-00097 in all
correspondence.

                                             Sincerely,

                                             /Anthony D. Wilkinson/ for
                                             Patricia Wheeler
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Carrie Evans


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF THE QUARTERLY
  MEDICAID STATEMENT OF
   EXPENDITURES FOR THE
MEDICAL ASSISTANCE PROGRAM
       IN OKLAHOMA




                      Daniel R. Levinson
                       Inspector General

                          July 2011
                        A-06-09-00097
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. In Oklahoma,
the Oklahoma Health Care Authority (State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income.
Additionally, States receive a higher, or enhanced, Federal share for some Medicaid services,
such as those related to family planning.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, enacted
February 17, 2009, provided an estimated $87 billion in additional Medicaid funding based on
temporary increases in States’ FMAPs. With the Recovery Act funding, Oklahoma’s FMAP for
Medicaid expenditures increased from 65.90 percent to 74.94 percent for the quarter ended
December 31, 2008.

The State agency claims Medicaid expenditures and the associated Federal share on the
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report). This form shows the disposition of Medicaid funds used to pay for
medical and administrative expenditures for the quarter being reported and any prior-period
adjustments.

The State agency operates its Medicaid program primarily through a fee-for-service payment
system and several waivers authorized by sections 1115 and 1915(c) of the Act. The State
agency also offers the Program of Assertive Community Treatment (PACT), which includes
comprehensive community-based behavioral health treatment and rehabilitation services for
people with serious and persistent mental illnesses. Reimbursement for PACT services changed
from an all-inclusive per diem rate to a per unit fee-schedule structure on July 1, 2008. To help
compensate for lower payments, the State agency made three additional lump-sum payments for
distribution to PACT providers during the period October 1, 2008, through December 31, 2009.

OBJECTIVES

Our objectives were to determine whether (1) the State agency claimed Federal reimbursement
of Medicaid expenditures for the quarter ended December 31, 2008, in accordance with Federal
requirements and (2) additional payments for PACT services made from October 1, 2008,
through December 31, 2009, were allowable.




                                                i
SUMMARY OF FINDINGS

For the quarter ended December 31, 2008, the State agency generally claimed Federal
reimbursement of approximately $1 billion in Medicaid expenditures in accordance with Federal
requirements. However, the State agency:

   •   applied incorrect FMAPs, resulting in an overstatement of the Federal share totaling
       $11,506;

   •   overlooked $6,140 ($4,602 Federal share) in expenditures on source documents when the
       CMS-64 report was compiled; and

   •   received an enhanced family planning Federal share totaling $126,613 for inpatient
       hospital expenditures, the appropriate amount of which we could not determine.

In addition, the State agency made $2,761,361 ($2,080,006 Federal share) in additional
PACT-related payments that were not approved in the State plan and therefore were unallowable.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $2,091,512, consisting of:

          o $11,506 in enhanced Federal share that it improperly received and

          o $2,080,006 for additional PACT payments;

   •   claim a Federal credit of $4,602 for overlooked expenditures;

   •   work with CMS to determine what portion of the $126,613 in enhanced family planning
       Federal share that it received was allowable;

   •   ensure that the full range of diagnosis codes allowable at the enhanced family planning
       FMAP are entered into its computer system for family planning waiver services;

   •   establish review procedures to ensure that Medicaid expenditures are correctly compiled,
       assigned, and claimed in accordance with the approved State plan; and

   •   submit documentation to CMS supporting the reasonableness of the 35-percent rate for
       allocating inpatient hospital expenditures to the enhanced family planning FMAP.




                                               ii
STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In its written comments on our draft report, the State agency agreed with our finding related to
incorrect FMAPs and said that it would correct the CMS-64 report for the quarter ended
March 31, 2011. The State agency disagreed with or did not address our other findings. We
removed one finding in response to the State agency’s comments; however, we disagreed with
the State agency’s other positions.

The State agency’s comments appear as the Appendix. We redacted a portion of the comments
that dealt with the finding that we removed.




                                                iii
                                                    TABLE OF CONTENTS

                                                                                                                                              Page

INTRODUCTION..........................................................................................................................1

      BACKGROUND ......................................................................................................................1
        Medicaid Program ................................................................................................................1
        American Recovery and Reinvestment Act of 2009............................................................1
        Oklahoma Medicaid Program ..............................................................................................2
        Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program ........2

      OBJECTIVES, SCOPE, AND METHODOLOGY .................................................................2
        Objectives ............................................................................................................................2
        Scope ....................................................................................................................................3
        Methodology ........................................................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................................4

      EXPENDITURES FOR THE QUARTER ENDED DECEMBER 31, 2008...........................5
        Incorrect Federal Medical Assistance Percentages ..............................................................5
        Overlooked Expenditures ....................................................................................................5
        Inpatient Hospital Services Allocated as Family Planning Services ..................................6

      PROGRAM OF ASSERTIVE COMMUNITY TREATMENT ..............................................6

      RECOMMENDATIONS .........................................................................................................6

      STATE AGENCY COMMENTS ............................................................................................7

      OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................7

APPENDIX

      STATE AGENCY COMMENTS




                                                                       iv
                                            INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. In Oklahoma,
the Oklahoma Health Care Authority (State agency) administers the Medicaid program.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of a State’s
medical assistance expenditures under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase
FMAPs at any time. Certain Medicaid services receive a higher FMAP, including family
planning services (90 percent) and services provided through an Indian Health Service facility
(100 percent).

As part of the implementation of their Medicaid programs, States may submit waiver requests to
CMS; these waivers, when approved, allow exceptions to certain requirements or limitations of
the Act. Two such waivers authorized by the Act are home and community-based waivers
(section 1915(c)) and demonstration waivers (section 1115).

American Recovery and Reinvestment Act of 2009

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), P.L. No. 111-5,
enacted February 17, 2009, provided fiscal relief to States to protect and maintain State Medicaid
programs in a period of economic downturn. For the recession adjustment period (October 1,
2008, through December 31, 2010), the Recovery Act provided an estimated $87 billion in
additional Medicaid funding based on temporary increases in States’ FMAPs. 1 Section 5000 of
the Recovery Act provides for these increases to help avert cuts in health care payment rates,
benefits, or services and to prevent changes to income eligibility requirements that would reduce
the number of individuals eligible for Medicaid. Sections 5001(a), (b), and (c) of the Recovery
Act provide that a State’s increased FMAP during the recession adjustment period will be no less
than its 2008 FMAP increased by 6.2 percentage points and that a State may receive an increase
greater than 6.2 percentage points based on increases to its average unemployment rate.
Oklahoma’s FMAP for Medicaid expenditures increased 9.04 percent, from 65.90 percent to
74.94 percent, for the quarter ended December 31, 2008.


1
 The Education Jobs and Medicaid Assistance Act (P.L. No. 111-226, section 201) extended the recession
adjustment period for the increased FMAP through June 30, 2011.

                                                       1
Oklahoma Medicaid Program

The State agency operates Oklahoma’s Medicaid program primarily through a fee-for-service
payment system and several primary care case management models organized under
section 1115 waivers. Under the primary care case management models, the State agency
contracts directly with physicians to provide primary care, coordination services, and specialty
care referrals. The State agency also obtained a family planning waiver under section 1115 and
various home and community-based waivers under section 1915(c). Through the family
planning waiver, the State agency offers specific family planning services to individuals who
otherwise would not have access to them.

The State agency also offers the Program of Assertive Community Treatment (PACT), which
includes comprehensive community-based behavioral health treatment and rehabilitation services
for people with serious and persistent mental illnesses. Providers of PACT services are teams
within Medicaid-contracted outpatient behavioral health organizations and must be certified by
the Oklahoma Department of Mental Health and Substance Abuse Services. Before July 1,
2008, PACT services were reimbursed under an all-inclusive per diem rate. After CMS
expressed concern about the per diem rate, the State agency changed the payment to a per unit
fee-schedule structure. The State agency made three additional lump-sum payments to the
Oklahoma Department of Mental Health and Substance Abuse Services for distribution to PACT
providers during the period October 1, 2008, through December 31, 2009.

Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program

The State agency claims Medicaid expenditures and the associated Federal share on the
Form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program (CMS-64 report). The CMS-64 report is an accounting statement that the State agency,
in accordance with 42 CFR § 430.30(c), must submit to CMS within 30 days after the end of
each quarter. This form shows the disposition of Medicaid funds used to pay for medical and
administrative expenditures for the reporting period and any prior-period adjustments.
The CMS State Medicaid Manual, section 2500(A)(1), states that the amounts reported on the
Form CMS-64 and its attachments must represent actual expenditures. In addition, all
supporting documentation must be in readily reviewable form and available at the time the claim
is filed.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether (1) the State agency claimed Federal reimbursement
of Medicaid expenditures for the quarter ended December 31, 2008, in accordance with Federal
requirements and (2) additional payments for PACT services made from October 1, 2008,
through December 31, 2009, were allowable.




                                                2
Scope

Our review covered more than $1 billion ($765 million Federal share) in Medicaid expenditures
that the State agency claimed on the CMS-64 report for the quarter ended December 31, 2008.
We did not include expenditures the State agency claimed on the sterilization line 2 because we
reviewed them in more detail during our review of expenditures that the State agency claimed for
hysterectomies.

Our review also covered $2,761,361 ($2,080,006 Federal share) in additional payments that the
State agency claimed for PACT services during the period October 1, 2008, through
December 31, 2009. This included $575,459 ($431,249 Federal share) claimed for the quarter
ended December 31, 2008.

We limited our review of supporting documentation to records that the State agency maintained
and did not evaluate claims submitted by providers to determine their validity. Our objectives
did not require a review of the overall internal control structure of the State agency. Therefore,
we limited our internal control review to the State agency’s procedures for aggregating Medicaid
expenditures on the CMS-64 report.

We conducted fieldwork at the State agency’s offices in Oklahoma City, Oklahoma.

Methodology

To accomplish our objectives, we:

     •   reviewed applicable Federal laws and regulations and the State plan sections;

     •   interviewed CMS personnel responsible for monitoring the CMS-64 report;

     •   interviewed State agency officials to obtain an understanding of their policies and
         procedures for reporting Medicaid expenditures on the CMS-64 report;

     •   analyzed the State agency’s procedures for aggregating Medicaid expenditures for the
         CMS-64 report to assess whether they would produce a reasonable and accurate claim
         for Federal reimbursement;

     •   acquired an understanding of the State agency’s Medicaid waiver programs;

     •   assessed the overall accuracy of amounts claimed on the CMS-64 report by tracing them
         to supporting reports from the State agency’s accounting system;

     •   selected seven CMS-64 report line item amounts totaling more than $789 million
         ($595 million Federal share), which was nearly 78 percent of the State agency’s claimed

2
 The State agency claimed expenditures totaling $2,980,708 on the CMS-64 report’s sterilization line and received
$2,694,369 in Federal share for them. These expenditures will be addressed in a separate report (A-06-10-00047).

                                                        3
        expenditures for the quarter: inpatient hospital services, nursing facility services,
        physician services, prescribed services, clinic services, home and community-based
        services, and other care services;

    •   traced expenditures included in the selected line items to detailed records and analyzed
        those records;

    •   selected and reviewed supporting documentation for a judgmental sample of
        expenditures that State agency officials manually entered into the State agency’s
        accounting system;

    •   obtained and reviewed supporting documentation for additional payments for PACT
        services that the State agency claimed from October 1, 2008, through December 31,
        2009; and

    •   discussed our results with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

For the quarter ended December 31, 2008, the State agency generally claimed Federal
reimbursement of approximately $1 billion in Medicaid expenditures in accordance with Federal
requirements. However, the State agency:

   •    applied incorrect FMAPs, resulting in an overstatement of the Federal share totaling
        $11,506;

   •    overlooked $6,140 ($4,602 Federal share) in expenditures on source documents when the
        CMS-64 report was compiled; and

   •    received an enhanced family planning Federal share totaling $126,613 for inpatient
        hospital expenditures, the appropriate amount of which we could not determine.

In addition, the State agency made $2,761,361 ($2,080,006 Federal share) in additional
PACT-related payments that were not approved in the State plan and therefore were unallowable.




                                                4
EXPENDITURES FOR THE QUARTER ENDED DECEMBER 31, 2008

Incorrect Federal Medical Assistance Percentages

Section 1905(a)(4)(C) of the Act requires States to furnish “family planning services.”
Section 1903(a)(5) of the Act and 42 CFR § 433.10(c)(1) authorize reimbursement at a
90-percent FMAP rate for family planning services. Section 4270 of the CMS State Medicaid
Manual (the manual) states that only items and procedures clearly furnished or provided for
family planning purposes may be claimed at the 90-percent FFP rate.

Section 1905(b) of the Act and 42 CFR § 433.10(c)(2) authorize reimbursement for services
provided through Indian Health Service facilities at 100 percent.

The State agency overstated the Federal share on the CMS-64 report by an additional $11,506.
The State agency claimed $110,023 of expenditures at enhanced FMAPs. Although these
expenditures were eligible for Federal reimbursement at the regular FMAP of 74.94 percent, they
were not for family planning services or for services provided through Indian Health Services
facilities. As a result, the State agency incorrectly received an enhanced Federal share of
$19,137, which consisted of:

   •   $12,703 (Federal share) in enhanced family planning (i.e., the difference between
       90 percent and 74.94 percent) and

   •   $6,434 (Federal share) in enhanced Indian Health Service funding (i.e., the difference
       between 100 percent and 74.94 percent).

This error occurred because a State agency official entered amounts from supporting documents
in the wrong FMAP column on the CMS-64 report.

The State agency also claimed $50,668 in family planning waiver expenditures at the regular
FMAP of 74.94 percent, even though these expenditures were eligible for the enhanced family
planning FMAP of 90 percent. This occurred because the State agency had not programmed its
computer system to assign the enhanced family planning FMAP to all diagnosis codes that were
eligible to receive it. As a result, the State agency did not receive $7,631 in Federal share to
which it was entitled.

Overlooked Expenditures

Pursuant to section 1903(a)(1) of the Act, the Federal Government pays its share of a State’s
Medicaid expenditures based on the FMAP.

The State agency did not claim $6,140 in expenditures for services offered under the Primary
Case Management model. The amount was overlooked on source documents when the CMS-64
report was compiled. As a result, the State agency did not receive $4,602 in Federal
reimbursement to which it was entitled.


                                                5
Inpatient Hospital Services Allocated as Family Planning Services

CMS’s Financial Management Review Guide Number 20 (Review Guide) states that when
multiple procedures are performed during a single hospital stay and one of them is related to
family planning, a State claim for Federal reimbursement must distinguish between those costs
attributable to family planning services and those costs attributable to other covered services.
The Review Guide states that in the absence of regulations, CMS must accept any method of
allocation a State adopts that reasonably allocates costs for the purpose of claiming the
appropriate Federal reimbursement rate.

The State agency identified inpatient hospital claims with primary procedures that were
not family planning procedures but had at least one family planning code, totaling a little more
than $2.4 million. A State agency official manually reassigned 35 percent of this total, or
$840,727, to the enhanced family planning FMAP of 90 percent. According to a State agency
official, 35 percent was the allocation rate negotiated with CMS approximately 15 to 20 years
ago.

The State agency could not show how it arrived at the 35-percent allocation rate or that CMS had
accepted its allocation method. As a result, we could not determine the allowable portion of the
enhanced family planning Federal share of $126,613 (i.e., the difference between 90 percent and
74.94 percent of $840,727) that the State agency received for the reassigned inpatient hospital
expenditures.

PROGRAM OF ASSERTIVE COMMUNITY TREATMENT

Section 1903(a)(1) of the Act provides for Federal matching funds only for those costs made by a
State under an approved State plan. Federal regulations (42 CFR § 430.10) require that the State
plan describe “the nature and scope of its Medicaid program.” In addition, the State plan should
contain “all information necessary for CMS to determine whether the plan can be approved to
serve as a basis for Federal financial participation ....”

Following the July 1, 2008, change to the fee-schedule payment structure, PACT providers
complained of decreased reimbursement. These complaints led the State agency to make three
lump-sum payments to the Oklahoma Department of Mental Health and Substance Abuse
Services between October 1, 2008, and December 31, 2009, for distribution to PACT providers.
These payments were in addition to payments that the State agency made under the fee-schedule
structure and were not approved in the State plan.

As a result, the State agency should not have claimed $2,761,361 in unallowable additional
PACT payments on its CMS-64 report and should not have received the Federal share of
$2,080,006.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund to the Federal Government $2,091,512, consisting of:
                                                6
           o $11,506 in enhanced Federal share that it improperly received and

           o $2,080,006 for additional PACT payments;

   •   claim a Federal credit of $4,602 for overlooked expenditures;

   •   work with CMS to determine what portion of the $126,613 in enhanced family planning
       Federal share that it received was allowable;

   •   ensure that the full range of diagnosis codes allowable at the enhanced family planning
       FMAP are entered into its computer system for family planning waiver services;

   •   establish review procedures to ensure that Medicaid expenditures are correctly compiled,
       assigned, and claimed in accordance with the approved State plan; and

   •   submit documentation to CMS supporting the reasonableness of the 35-percent rate for
       allocating inpatient hospital expenditures to the enhanced family planning FMAP.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed with our recommendation
related to incorrect FMAPs and said that it would correct the CMS-64 report for the quarter
ended March 31, 2011. However, the State agency disagreed with or did not address our other
recommendations.

Regarding the inpatient hospital services allocated as family planning services, the State agency
said that CMS had agreed that the 35-percent allocation rate was reasonable and that the
methodology met the requirements of the Review Guide.

Finally, regarding the PACT payments, the State agency said that the payments were allowable
under the State plan section related to supplemental payments for Behavioral Community
Networks (BHCN). The State agency said that the section outlines the criteria for receiving
supplemental payments. The State agency indicated that the criteria were met; thus, the
payments were allowable under the State plan.

The State agency’s comments appear as the Appendix. We redacted a portion of the comments
that dealt with a finding that we removed.

OFFICE OF INSPECTOR GENERAL RESPONSE

We removed one finding in response to the State agency’s comments; however, we disagreed
with the State agency’s other positions. Regarding the inpatient hospital services allocated as
family planning services, the State agency could not provide support showing how it arrived at
the 35-percent allocation rate or evidence that CMS had accepted its allocation method.



                                                7
The documentation that the State agency provided to support the additional payments indicated
that the payments were for direct PACT services, not supplemental payments to BHCNs. The
section of the State plan that the State agency cited in its comments relates to clinic services.
PACT services are not clinic services because they are provided in patients’ homes, at work, and
in community settings. Thus, the State plan section is not applicable to the additional PACT
payments.




                                                8
APPENDIX
                                                                                          Page 1 of 3

                      APPENDIX: STATE AGENCY COMMENTS




April 7, 2011



Ms. Patricia Wheeler
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region IV
1100 Commerce Street, Room 632
Dallas, TX 75242

Re: Report Number: A-06-09-00097

Dear Ms. Wheeler:

Please find our responses below to the above referenced Audit Report:

Finding: Inaccurately claimed $192,986 (Federal Share $174,611) in
expenditures, including expenditures incurred under the Children’s Health
Insurance Program (CHIP) but inappropriately claimed as Medicaid Family
Planning expenditures, was well as, expenditures overlooked on source
documents when the Form CMS-64 was compiled.

Response: The Oklahoma Health Care Authority (OHCA) does not concur with
this finding. On the CMS 64.9 report, under the CHIP expenditures, there is no
column to report Family Planning Federal share. Therefore, to correctly claim the
Family Planning Federal share, OHCA transfers the expenditures to the CMS
64.9 base and claims the Federal share under Title XIX expenditures, which has
columns for both Family Planning and Indian Health Services. This methodology
has been used in Federal reporting since the inception of the CHIP expansion.
The methodology was approved by CMS and is subject to CMS audit each
quarter. OHCA now has a stand alone CHIP program in which the expenditures
are reported on the CMS-21 report. This report also does not have columns to
report any Family Planning and Indian Health Federal share. OHCA continues to
accurately report the Enhanced Family Planning Federal share under Title XIX. 1

Finding: Applied incorrect FMAP’s, resulting in an overstatement of the Federal
Share totaling $11,506.

1
 Office of Inspector General Note: This section of the State agency’s comments is not applicable
because the finding or issue referred to by the auditee is not included in this report.
                                                                        Page 2 of 3


Response: OHCA concurs with the $11,506 overstatement due to inaccurately
applied FMAP’s and will correct on the CMS 64.9 report for the quarter ended
March 31, 2011.

Finding: Received an enhanced Family Planning Federal share totaling
$126,613 for inpatient hospital expenditures, the appropriate amount of which
could not be determined.

Response: OHCA does not concur with the finding. Section 1903(a) (5) of the
Social Security Act and 42 CPR §§ 433.10 and 433.15 provide enhanced 90%
FFP for Family Planning services. Pursuant to section 4270 of the CMS "State
Medicaid Manual," Family Planning services prevent or delay pregnancy or
otherwise control family size. According to the manual, 90% Federal funding is
available for these services. CMS "Financial Management Review Guide
Number 20" states that inpatient hospital costs must be allocated when multiple
procedures are performed and at least one of those procedures is related to
family planning. To comply with these requirements, Oklahoma developed a
blended rate methodology to determine the Federal share of inpatient hospital
family planning for claims containing multiple procedures performed during the
same inpatient hospital stay.

To comply with CMS requirements regarding family planning services provided
along with non-family planning services, the State developed a blended rate
methodology to determine the Federal share of inpatient hospital claims
containing multiple procedures (e.g., delivery and sterilization) performed during
the same inpatient hospital stay. The methodology which was agreed to by CMS
and met the requirements of the Medicaid Operations Letter 91-9 issued on
January 30, 1991 is a fairly benign approach to allocating the costs of these
inpatient services. OHCA MMIS first takes all inpatient claims with a primary
diagnosis of family planning and counts those at the enhanced 90% rate, then
those are excluded, so the universe now considers only those claims with a
diagnosis of family planning found somewhere in the 2nd to 5th diagnosis range,
those claims are totaled and assigned a blended rate that basically says of that
total, 35 % can be attributed to family planning services and claimed at the 90%
enhanced rate. This is actually a fairly low rate considering that at the time the
rate was developed we paid a per diem for these stays with minimal diagnosis
information past the primary. Additionally, 2009 data shows that Medicaid paid
for 33,669 births (64.29% of the total in Oklahoma) and in that process, family
planning services are addressed as a routine matter. Also, Oklahoma Medicaid
serves females at the rate of 2.5 times that of a male, in the adult population.
Females are far more likely to seek family planning services than males and
generally the cost for these services are much higher in the female population.
The State's blended rate is 35% during our audit period and was agreed to be
reasonable by CMS and to meet the requirement of the 1980 memorandum on
the subject that was included with 1991 guidance.
                                                                        Page 3 of 3


Finding: Claimed unallowable additional Program of Assertive Community
Treatment (PACT) payments on Form CMS-64 in the amount of $2,761,361
(Federal Share $2,080,006).

Response: OHCA does not concur that the additional payment was not an
allowable expenditure and eligible for Federal matching funds. The total
payment of $2,761,361 was an allowable expenditure under the State Plan;
Attachment 4.19-B entitled “Supplemental Payments for Behavioral Community
Networks (BHCN)”. This section of the State Plan outlines eligibility criteria for
such supplemental payments. The Plan states “in order to maintain access and
sustain improvement in clinical and non-clinical care, supplemental payments will
be made to BHCNs that meet the following criteria:

        (a) Must be a freestanding governmental or private provider organization
that is certified by and operates under the guidelines of the Oklahoma
Department of Mental Health and Substance Services (DMHSAS) as a
Community Mental Health Center (CMHC) and;

      (b) Participates in behavioral quality improvement initiatives based on
measures determined by and in a reporting format specified by the Medicaid
agency.

All required and necessary criteria were met resulting in an allowable Medicaid
expenditure eligible for Federal matching participation.

If you have any questions, or need any additional information, please do not
hesitate to call me at (405) 522-7359.

Sincerely,



Carrie Evans
Chief Financial Officer
Oklahoma Health Care Authority
